V

No.

IN THE
SUPREME COURT OF THE UNITED STATES

SAMUEL A. RIDDER

— PETITIONER

(Your Name)
VS.
TTM SHOOP

— RESPONDENT(S)

PROOF OF SERVICE
Samuel A. Ridder
, do swear or declare that on this date,
June 24th
, 20 2lL, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
I,

The names and addresses of those served are as follows:
Attorney for the Resondent, Ohio Attorney General, c/o Hilda
Rosenberg, at Criminal Justice Center. 441 Vine Street. Carew
Tower.9

Cincinnati

Ohio 4S70?

I declare under penalty of peijury that the foregoing is true and correct.
Executed on

June 24th

, 20

(Signature)
23

j

r

Supreme Court of the United States
Ridder, Petitioner v. Shoop, Warden, Respondent
Certiorari No.
Appeal No. 20-3525
District No. l:18-cv-61
I am an inmate confined in an institution. Today June 24th, 2021,
I am depositing the Petition for Certiorari in this case in the
institution's internal mail system. First-class postage is being
prepaid by-either.:me .or-.by,the. institution on my behalf.
I declare under penalty of perjury that the foregoing is true and
correct, (see 28 U. S.C. "■§ 1746; 18 U. S . C. § 1621).

Samuel A.Ridder,Petitioner-Pro se
Signed on June 24, 2021.

JUL - 8 7021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

Additional material
from this filing is
available in the
Clerk's Office.

